Review of the Commission’s
Processes for Selecting
Investment Advisers and
Investment Companies for
Examination




PUBLIC REDACTED VERSION      November 19, 2009
                                Report No. 470
Review of the Commission’s Process for
Selecting Investment Advisers and
Investment Companies for Examinations

                       Executive Summary
Background. On August 31, 2009, the OIG issued a comprehensive, 450-plus
page investigative report entitled, Investigation of Failure of the SEC to Uncover
Bernard Madoff’s Ponzi Scheme, Report No. 509. The investigation found that
the SEC received more than ample information in the form of detailed and
substantive complaints over a period of many years to warrant a thorough and
comprehensive examination and/or investigation of Bernard Madoff (Madoff) and
Bernard Madoff Investment Securities, LLC (BMIS) for operating a Ponzi
scheme. However, despite three examinations and two investigations of Madoff
and BMIS, a thorough and competent investigation or examination was never
performed, and the SEC never identified the Ponzi scheme that Madoff operated.

The first Enforcement investigation and first examination were conducted in 1992
after the SEC received information that led it to suspect that Avellino & Bienes, a
firm for which Madoff was managing money, was selling unregistered securities
and conducting a Ponzi scheme. The SEC’s investigation focused on Avellino &
Bienes and did not investigate the possibility that Madoff was the one who was in
fact operating the Ponzi scheme.

In 2004 and 2005, the SEC’s examination unit, Office of Compliance Inspections
and Examinations (OCIE), conducted two parallel cause examinations of BMIS.
These examinations were conducted by OCIE’s broker-dealer examination unit,
rather than its investment adviser unit, notwithstanding that many of the issues in
the complaints that precipitated the examinations related to BMIS’s investment
adviser operations. During the 2004 examination, the examiners raised the issue
of whether BMIS was acting as an unregistered investment adviser. A member
of the examination team drafted a memorandum about whether BMIS met the
definition of investment adviser, but the memorandum was never finalized, and
the team did not pursue or resolve the issue of BMIS’s investment adviser status.
Similarly, in the 2005 examination, examiners began researching the issue of
whether Madoff should be registered as an investment adviser due to his
investment discretion over certain hedge fund accounts, but the investment
adviser registration issue was not pursued or resolved.

Enforcement formally opened an investigation of BMIS in January 2006, based
upon a detailed complaint that Harry Markopolos (Markopolos), an independent
fraud investigator, provided to Enforcement in 2005. Although Markopolos’
complaint focused on why Madoff’s returns could not be legitimate, the


                                         ii
Enforcement team investigating Markopolos’ complaint decided to open the
matter to investigate (1) whether BMIS, a registered broker-dealer, provided
investment advisory services to large hedge funds in violation of the registration
requirements of the Investment Advisers Act of 1940, and (2) whether BMIS
engaged in any fraudulent activities in connection with these services.

During its investigation, the staff learned from an OCIE examiner that in the 2005
examination of BMIS by OCIE’s broker-dealer examination staff, Madoff failed to
disclose to the staff both the nature of the trading conducted in the hedge fund
accounts and also the number of such accounts at BMIS.

When closing its investigation in 2007, the Enforcement staff stated that they
found “that BMIS acted as an [unregistered] investment adviser to certain hedge
funds, institutions, and high net worth individuals in violation of the registration
requirements of the Advisers Act.” The Enforcement staff also found that
Madoff’s largest hedge fund client, Fairfield Greenwich Group (FGG), “did not
adequately disclose to its investors [BMIS’s] advisory role and merely described
[BMIS] as an executing broker to FGG’s accounts.”

As a result of this investigation and discussions with SEC staff, BMIS registered
with the Commission as an investment adviser. BMIS filed Part 1 of its Form
ADV with the Commission on August 25, 2006, and its registration as an
investment adviser became effective on September 12, 2006. Further, FGG
revised its disclosures to investors to reflect BMIS’s advisory role. The
Enforcement staff stated that BMIS’s investment adviser registration was a “good
result” because it would expose Madoff and his firm to “extra regulatory scrutiny.”
They further noted that BMIS’s agreement to register as an investment adviser
was “a positive development for law enforcement” because, inter alia, BMIS
would “be subject to continued on-site inspections.”

However, we found that until Madoff confessed to operating a Ponzi scheme in
December 2008, OCIE never initiated an examination of BMIS even after BMIS
was forced to finally register in August 2006. We conducted this review to
determine OCIE’s rationale for not performing an examination of BMIS’s
investment advisory business soon after the firm registered as an investment
adviser in 2006 and to make recommendations to improve OCIE’s process for
selecting investment advisers and investment companies for examination.

Results. We found that OCIE assigns each registered investment adviser a
“low,” “medium,” or “high” risk rating, which is initially based on each adviser’s
response to certain questions in Part 1 of the Uniform Application for Investment
Adviser Registration (Form ADV). When BMIS registered as an investment
adviser in 2006, BMIS was classified as “medium risk,” based on its answers to
the questions provided on its Form ADV Part 1. BMIS filed two subsequent Form
ADVs in 2007 and 2008. Each of the three Form ADVs received by the
Commission resulted in BMIS being assigned a “medium risk” designation in



                                         iii
2006, 2007, and 2008. We found that only firms categorized as “high risk” trigger
routine OCIE examinations within three years of receiving the “high risk” rating.

To ascertain the Form ADV rating, OCIE uses an algorithm to calculate a
numeric score for each firm based on certain affiliations, business activities,
compensation arrangements, and other disclosure items that could pose conflicts
of interest. Although the risk algorithm allows OCIE to determine an investment
adviser’s relative risk profile, in the absence of an examination risk rating, it is
potentially limited because it does not measure the effectiveness of the
investment adviser’s compliance controls, which are designed to mitigate
conflicts of interest or other risks that could harm investors.

OCIE may also develop a risk rating for an investment adviser based upon
information obtained through an examination. The examination rating is
weighted more heavily than the Form ADV rating since it is based upon more
complete information. However, because OCIE’s investment adviser unit never
conducted a formal examination of BMIS’s investment advisory business,
notwithstanding the fact that OCIE’s broker-dealer unit and Enforcement
analyzed numerous aspects of BMIS’s advisory business during their
examinations and investigations, OCIE never developed a risk rating of BMIS
based on an OCIE examination.

Therefore, OCIE’s rating of BMIS was “medium” – the same as BMIS’s Form
ADV rating. We found this problematic because BMIS was examined and
investigated by OCIE and Enforcement repeatedly, found to be operating as an
(unregistered) investment adviser, and OCIE and Enforcement found that Madoff
lied about BMIS’s advisory role. We found that BMIS’s registration as an
investment adviser was prompted by an Enforcement investigation, which should
have automatically led to BMIS receiving an initially higher risk rating than it
would have received had its registration not been a condition of Enforcement
closing its investigation. Moreover, findings from OCIE’s prior cause
examinations of BMIS and from Enforcement’s investigations involving BMIS
should have prompted OCIE to question BMIS’s “medium” Form ADV rating.

Enforcement stated that BMIS’s investment adviser registration was a “good
result” because it would expose Madoff and his firm to “extra regulatory scrutiny.”
However, there is no indication that anyone on the Enforcement staff ever
suggested that OCIE’s investment adviser examination staff conduct a cause
examination of BMIS. We found this fact to be troubling because the
Enforcement investigation (which included the assistance of an OCIE broker-
dealer examiner) revealed that Madoff did not fully disclose either the nature of
the trading BMIS conducted in hedge fund accounts or the number of such
accounts at BMIS, that BMIS commingled billions of dollars of equities among its
investment advisory accounts and with its broker-dealer proprietary account, and
that the investor disclosures of BMIS’s largest hedge fund client did not
adequately describe BMIS’s advisory role. As some of the problems identified in



                                         iv
this investigation related to BMIS’s investment advisory operations, we found that
both Enforcement and OCIE’s broker-dealer examination staff should have
immediately notified OCIE’s investment adviser examination unit. We further
concluded that at that point, OCIE should have immediately scheduled a cause
examination.

We found that Enforcement’s and OCIE’s broker-dealer examination unit’s
failures to communicate with OCIE’s investment adviser unit led to OCIE’s failure
to conduct an examination of BMIS’s advisory business. An OCIE Branch Chief
testified that BMIS might have been subject to a “cause exam” immediately after
it registered had the investment adviser examination staff been informed that
Madoff had made misrepresentations to Enforcement and OCIE broker-dealer
examination staff.

We also found that OCIE’s risk rating process did not adequately weigh an
investment adviser’s level of assets under management and the number of
clients that receive investment advisory services. We believe that advisers with
more assets under management and more clients who receive advisory services
should receive progressively higher risk scores.

As part of our review, we conducted an analysis of BMIS’s 2006, 2007, and 2008
filings and found that had BMIS provided accurate information on its Form ADVs,
it may have been classified as a “high risk” adviser and therefore subject to a
routine OCIE examination within three years of receiving a “high risk” rating.

We found numerous lies and misrepresentations in Part 1 of BMIS’s Form ADV
that OCIE should have been aware of because of the examinations it conducted
of BMIS. We found that Madoff, on behalf of BMIS, lied about the number of
firms he solicited, the number of clients to whom he provided services, the types
of clients he had, the amount of BMIS’s assets, whether he had discretionary
authority to determine the broker or dealer to be used for a purchase or sale of
securities for a client’s account, whether had compensation any firms for client
referrals and whether any firms had custody of his advisory clients’ securities. In
fact, nearly every substantive answer he gave on Part 1 of his Form ADV was a
lie, and in nearly every case, OCIE’s previous examinations of Madoff had
revealed that Madoff’s answers were false. Moreover, had OCIE utilized the
information the SEC gathered from the examinations and investigations of BMIS
in assigning risk weighting to BMIS’s answers and thus, graded it on accurate
information, BMIS’s score would have been significantly higher. In that scenario,
BMIS should have been subject to the three-year cycle for a firm rated as “high”
risk.

Our review also found that Form ADV has not been substantively updated since
2000, when it was first required to be filed electronically with the Commission.
We believe that OCIE could identify additional risk factors if registrants were
required to include in Form ADV detailed information about the hedge funds they



                                         v
advise, including the hedge funds’ performance and auditor. Further, Form ADV
should require a hedge fund’s auditor to file its opinion with the Commission.

Further, we found that until 2000, investment advisers were required to file Parts
1 and II of Form ADV with the Commission in hard copy. Part II of ADV was
required to be filed with the SEC until 2000 when the Commission adopted new
rules under the Advisers Act requiring that registered advisers make filings with
the Commission electronically through an electronic filing system known as the
Investment Adviser Registration Depository (IARD) system. At that time, the
Commission exempted advisers from submitting Part II to the Commission
because the IARD was not ready to accept those filings. The exemption was
intended to be temporary, but nine years later, investment advisers are still not
required to file Part II of their Form ADV electronically or even file a paper copy
with the Commission, absent a specific request from the Commission. Instead,
advisers need only retain a copy of Part II of their Form ADV in their files.
Currently, Part II is deemed to be “filed” with the SEC when advisers update the
form and place a copy in their files.

We found that considering Form ADV Part II “filed” with the Commission when an
adviser places it in his filing cabinet is an inadequate procedure and concluded
that Part II of Form ADV should be electronically filed with the Commission. This
document provides pertinent disclosures about an investment adviser’s advisory
services, fees, types of clients, types of investments on which the adviser offers
advice, an adviser’s other business activities, affiliates, conditions for managing
accounts, and compensation information, among other things.

Finally, our review found that OCIE internal documentation identified a risk that
hedge fund custodian statements could be fictitious and the assets may not be
verifiable. Another risk stated that since investment advisers are not required to
file Part II of Form ADV with the Commission, the SEC does not receive
important information regarding potential conflicts of interest involving investment
advisers. While these issues have been identified, we found that they have not
been resolved.

Summary of Recommendations. Our report presents 11 specific and concrete
recommendations designed to improve OCIE’s process for selecting investment
advisers and investment companies for examination.

We recommend that OCIE implement a procedure requiring, as part its process
for creating a risk rating for an investment adviser, that OCIE staff perform a
search of Commission databases containing information about past
examinations, investigations, and filings related to the investment adviser.

We recommend that OCIE change the risk rating of an investment adviser based
on pertinent information garnered from all Divisions and Offices of the
Commission, including information from OCIE examinations and Enforcement



                                         vi
investigations, regardless of whether the information was learned during an
examination conducted to look specifically at a firm’s investment advisory
business.

Further, Enforcement and OCIE should establish and adhere to a joint protocol
providing for the sharing of all pertinent information (e.g., securities laws
violations, disciplinary history, tips, complaints and referrals) identified during the
course of an investigation or examination or otherwise.

We recommend that OCIE establish a procedure to thoroughly evaluate negative
information that it receives about an investment adviser and use this information
to determine when it is appropriate to conduct a cause examination of an
investment adviser, and when it becomes aware of negative information
pertaining to an investment adviser, it examine the investment adviser’s Form
ADV filings and document and investigate discrepancies existing between the
adviser’s Form ADV and information that OCIE previously learned about the
registrant.

We further recommend that OCIE establish a procedure to thoroughly evaluate
an investment adviser’s Form ADV when OCIE becomes aware of issues or
problems with an investment adviser.

We also recommend that OCIE re-evaluate the point scores that it assigns to
advisers based on their reported assets under management and their reported
number of clients to which they provide investment advisory services and assign
progressively higher risk weightings to firms accordingly.

Further, we recommend that a Commission rulemaking be instituted that would
require additional information to be reported as part of Form ADV and that the
proposed rule providing for Amendments to Form ADV be finalized. We also
recommend that OCIE develop and adhere to policies and procedures for
conducting third party verifications, such that OCIE verifies the existence of
assets, custodian statements, and other relevant criteria.

We believe that implementation of the recommendations contained in this report
will significantly improve OCIE’s operations and its process for selecting
investment advisers and investment companies for examination.




                                          vii
                             TABLE OF CONTENTS

Executive Summary ................................................................................................ ii

Table of Contents ..................................................................................................viii

Background and Objectives ................................................................................ 10

Findings and Recommendations ........................................................................ 20

         Finding 1: OCIE’s Risk Rating Process Did Not Provide for a Routine
           Examination of BMIS Because BMIS Was Classified As a Medium Risk
           Firm ............................................................................................................... 20
                           Recommendation 1..................................................................... 25
                           Recommendation 2..................................................................... 25

         Finding 2: OCIE Should Have Immediately Scheduled a Cause
           Examination of BMIS when BMIS Registered as an Investment Adviser ...... 25
                      Recommendation 3..................................................................... 28
                      Recommendation 4..................................................................... 28
                      Recommendation 5..................................................................... 29

         Finding 3: BMIS Made Misrepresentations on its Form ADV Filings, and
           OCIE Should Have Been Aware of These Misrepresentations...................... 29
                     Recommendation 6..................................................................... 38
                     Recommendation 7..................................................................... 38
                     Recommendation 8..................................................................... 38

         Finding 4: Form ADV Should Require Additional Information.......................... 39
                      Recommendation 9..................................................................... 40

         Finding 5: Part II of Form ADV Should Be Filed with the Commission ............ 41
                      Recommendation 10................................................................... 42

         Finding 6: OCIE Identified Certain Risks But These Risks Have Not Been
           Addressed ..................................................................................................... 43
                      Recommendation 11................................................................... 44




                                                          viii
Appendices
    Appendix I: Acronyms. .................................................................................... 45
    Appendix II: Scope and Methodology.............................................................. 46
    Appendix III: Criteria........................................................................................ 48
    Appendix IV: List of Recommendations .......................................................... 49
    Appendix V: Management Comments............................................................. 52
    Appendix VI: OIG Response to Management Comments ............................... 56

Tables
     Table 1: Investment Adviser Registrants and SEC Investment Adviser
        and Investment Company Examination Staff .............................................. 14
     Table 2: Suggested Investment Adviser Risk Ratings According to Form
        ADV and OCIE Examinations ..................................................................... 23




                                                     ix
Background and Objectives

Background
On December 11, 2008, the Securities and Exchange Commission (SEC)
charged Bernard L. Madoff (Madoff) with securities fraud for a multi-billion dollar
Ponzi scheme that he perpetrated on thousands of investors, including advisory
clients of his firm. The complaint charged Madoff with violations of the anti-fraud
provisions of the Securities Act of 1933, the Securities Exchange Act of 1934 and
the Investment Advisers Act of 1940. On the same date, the U.S. Attorney’s
Office in the Southern District of New York indicted Madoff for criminal offenses.
On March 12, 2009, Madoff pled guilty to all charges, and on June 29, 2009, a
federal District Judge sentenced Madoff to serve 150 years in prison, which was
the maximum sentence allowed.

By mid-December 2008, the SEC learned that credible and specific allegations
regarding Madoff’s financial wrongdoing were repeatedly brought to the attention
of SEC staff, but were never recommended to the Commission for action. As a
result, on the late evening of December 16, 2008, former SEC Chairman
Christopher Cox contacted the SEC Office of Inspector General (OIG) and asked
the OIG to undertake an investigation into allegations made to the SEC regarding
Madoff, going back to at least 1999, and the reasons why these allegations were
found to be not credible. Former Chairman Cox also asked that the OIG
investigate the SEC’s internal policies that govern when allegations of fraudulent
activity should be brought to the Commission’s attention. In addition, Cox
requested that the OIG investigation include all staff contact and relationships
with the Madoff family and firm, and any impact such relationships had on staff
decisions regarding the firm.

On August 31, 2009, the OIG issued a comprehensive, 450-plus page
investigative report, Investigation of Failure of the SEC to Uncover Bernard
Madoff’s Ponzi Scheme, Report No. 509. The investigation found that the SEC
received more than ample information in the form of detailed and substantive
complaints over a period of many years to warrant a thorough and
comprehensive examination and/or investigation of Bernard Madoff and Bernard
Madoff Investment Securities, LLC (BMIS) for operating a Ponzi scheme.
However, despite three examinations and two investigations of Madoff and BMIS,
a thorough and competent investigation or examination was never performed,
and the SEC never identified the Ponzi scheme that Madoff operated.




Review of Commission’s Process For Selecting IA & Inv Co. for Exams   November 19, 2009
Report No. 470
                                         Page 10
Previously Issued OIG Audit Reports. On September 29, 2009, the OIG issued
Program Improvements Needed Within the SEC’s Division of Enforcement,
Report No. 467. The review identified issues that prevented the Division of
Enforcement (Enforcement) from accomplishing its mission to enforce the
securities laws and protect investors and identified needed programmatic
improvements. The report found that Enforcement staff lacked adequate
guidance on how to appropriately analyze complaints. As a result, Enforcement
did not conduct a thorough review of complaints brought to its attention prior to
Madoff’s confession.

On September 29, 2009, the OIG also issued Review and Analysis of OCIE
Examinations of Bernard L. Madoff Investment Securities, LLC, Report No. 468.
The report found that OCIE examiners made critical mistakes in nearly every
aspect of their examinations of Madoff and BMIS and missed significant
opportunities to uncover Madoff’s Ponzi scheme. The report concluded that OCIE
examiners did not properly plan or conduct their examinations of BMISf, and
because of these failures, were unable to discover Madoff’s fraud.

SEC’s Oversight of Investment Advisers. The SEC regulates investment
advisers, primarily under the Investment Advisers Act of 1940 (the Advisers
Act). 1 One of the central elements of this regulatory program is that a person or
firm meeting the definition of “investment adviser” under the Advisers Act must
register with the Commission, unless exempt or prohibited from registration.

Generally, advisers that have $25 million or more of assets under management
or that provide advice to a registered investment company are required to
register with the Commission. Smaller advisers may register under state law with
state securities authorities.

A person or firm is required to register with the Commission if he or it is:

      •   An “investment adviser” under Section 202(a)(11) of the Advisers Act;
      •   Not excepted from the definition of investment adviser by Section
          202(a)(11)(A) through (E) of the Advisers Act;
      •   Not exempt from Commission registration under Section 203(b) of the
          Advisers Act; and
      •   Not prohibited from Commission registration by Section 203A of the
          Advisers Act.



1
    Investment Advisers Act of 1940, 15 U.S.C. 80b-1 et seq.

Review of Commission’s Process For Selecting IA & Inv Co. for Exams   November 19, 2009
Report No. 470
                                                 Page 11
An investment adviser is generally described as any person or firm that (1) for
compensation; (2) is engaged in the business of; (3) providing advice, making
recommendations, issuing reports, or furnishing analyses on securities, either
directly or through publications. A person or firm must satisfy all three elements
to be regulated under the Advisers Act.

The Commission’s Division of Investment Management construes these statutory
elements broadly. For example, “compensation” refers to the receipt of any
economic benefit. With respect to the “business” element, an investment
advisory business need not be the person’s or firm’s sole or principal business
activity. Rather, this element is satisfied under any of the following
circumstances: the person or firm holds himself or itself out as an investment
adviser or as providing investment advice; the person or firm receives separate
or additional compensation for providing advice about securities; or the person or
firm typically provides advice about specific securities or specific categories of
securities.

Moreover, the Division of Investment Management views a person or firm to have
satisfied the “advice about securities” element if the advice or reports relate to
securities. The Division has stated that providing one or more of the following
also could satisfy this advice about securities element: advice about market
trends; advice in the form of statistical or historical data (unless the data is no
more than an objective report of facts on a non-selective basis); advice about the
selection of an investment adviser; advice concerning the advantages of
investing in securities instead of other types of investments; or a list of securities
from which a client can choose, even if the adviser does not make specific
recommendations from the list.

Form ADV. Investment advisers register with the SEC using the SEC “Form
ADV,” which is the “Uniform Application for Investment Adviser Registration.”
Investment advisers use Form ADV to register with the Commission, register with
one or more state securities authorities, and to amend those registrations as
required by Instruction No. 4 to Form ADV and Advisers Act rules.

Form ADV consists of three parts: Part 1A, Part 1B, and Part II. Advisers
are required to submit Part 1A of this Form to the SEC annually. The SEC
maintains the information submitted in Part 1A and makes it available to the
public. Advisers are not required to provide a copy of Part II of Form ADV to the
SEC, absent a specific request. Instead, advisers must retain a copy of Part II in
their files. Currently, Part II is deemed to be “filed” with the SEC when advisers
update the form and place a copy in their files. Advisers are required to retain
Part II of Form ADV on-site and provide it (or a document containing the
information therein) to new clients and offer it annually to existing clients.


Review of Commission’s Process For Selecting IA & Inv Co. for Exams   November 19, 2009
Report No. 470
                                         Page 12
The three parts of Form ADV are as follows:

      •   Part 1A asks for information about an investment adviser’s business
          practices, the persons who own and control the adviser, and the persons
          who provide investment advice on an adviser’s behalf. Part 1A also
          contains several supplementary schedules, which ask advisers to provide
          information about their direct owners and executive officers, indirect
          owners, and disciplinary events involving themselves and their affiliates.
          All advisers registering with the SEC or any of the state securities
          authorities must complete Part 1A.
      •   Part 1B asks for disclosure information that is required by state securities
          authorities. An adviser is required to complete Part 1B only if it is applying
          for registration with, or is registered as, an investment adviser with a state
          securities authority. If an adviser is only registered with the SEC, the
          adviser is not required to complete Part 1B. Part 1B is not utilized by the
          SEC for federally registered investment advisers.
      •   Part II of Form ADV requires an adviser to provide information related to
          its services and fees, types of clients, investment advice, methods for
          analysis, sources of information and investment strategies, other business
          activities, other financial industry activities or affiliations, conditions for
          managing accounts and its balance sheet. An adviser is required to keep
          the information in Part II current, deliver it to prospective clients, and
          annually offer it to current clients.

Filing of the Form ADV. Advisers file Part 1 of Form ADV electronically with the
Commission through the Investment Adviser Registration Depository (IARD)
system. The IARD is an electronic filing system that facilitates investment
adviser registration, regulatory review, and the public disclosure of information
from investment advisers. The Financial Industry Regulatory Authority (FINRA)
developed and operates the IARD system.

Advisers are required to update Form ADV each year by filing an annual
updating amendment within 90 days after the end of its fiscal year. In addition to
an adviser’s annual updated filing, an adviser must amend its Form ADV by filing
additional amendments whenever an adviser’s responses to certain questions on
Form ADV become inaccurate. Failure to update a Form ADV is a violation of
SEC Rule 204-1 2 and similar state rules and could lead to the revocation of an
adviser’s registration.



2
    17 C.F.R. § 275.204-1.

Review of Commission’s Process For Selecting IA & Inv Co. for Exams    November 19, 2009
Report No. 470
                                         Page 13
If an adviser needs to withdraw its registration status with the SEC, the adviser is
required to file Form ADV-W. For example, an adviser would file a Form ADV-W
if its assets under management fell below $25 million.

Exclusions from the Definition of Investment Adviser. Certain individuals or
entities are excluded from the definition of an investment adviser, such as
domestic banks and bank holding companies and lawyers, accountants,
engineers and teachers, if their performance of advisory services is solely
incidental to their professions. Brokers and dealers are also excluded from the
definition of investment adviser if their performance of advisory services is solely
incidental to the conduct of their business as brokers and dealers and they do not
receive any special compensation for their advisory services.

The Advisers Act gives the SEC the authority to exclude, by rules and regulations
or order, other persons and firms it determines not to be within the intent of the
Adviser Act definition of investment adviser.

Number of Investment Advisers vs. SEC Examination Staff. As shown in
Table 1, in FY 2009 there were 11,292 registered advisers and approximately
452 OCIE Investment Adviser and Investment Company examination staff. 3 The
number of registered advisers has steadily grown each year, from 7,686 in FY
2003. The examination staff of the Office of Compliance Inspections and
Examinations (OCIE) has also grown since 2003, but the growth in examination
staff has not kept pace with the growth in the number of registered advisers.

Table 1: Investment Adviser Registrants and SEC Investment Adviser and
Investment Company Examination Staff
                                               SEC Investment Adviser
          Year            Total Investment    and Investment Company
                        Adviser Registrants        Examination Staff
          2003                  7,686                    399
          2004                  7,959                    477
          2005                  8,535                    489
          2006                  9,017                    475
          2007                 10,662                    425
          2008                 10,817                    425
          2009                 11,292                    452
Source: SEC’s Office of Compliance Inspections and Examinations

Types of OCIE Examinations. OCIE examines investment advisers, investment
companies, broker-dealers, transfer agents, clearing agencies, self-regulatory
agencies, and nationally recognized statistical rating organizations. For
3
    The same OCIE staff examines both investment advisers and investment companies.

Review of Commission’s Process For Selecting IA & Inv Co. for Exams               November 19, 2009
Report No. 470
                                               Page 14
investment advisers and investment companies, OCIE generally conducts three
types of examinations: cause, routine and sweep.

Cause Examinations are conducted when staff have reason to believe that there
have been violations of the federal securities laws. In these examinations, staff
review irregular activity, determine if violations have occurred, gather supporting
documentation, perform interviews and prepare analyses as evidence of
violations. Cause examinations are conducted at both main and branch offices.

Routine examinations are conducted periodically and test an entity’s compliance
with applicable laws and regulations. In routine examinations, OCIE looks at
compliance with the law in a specified number of areas. Because of the size and
complexity of the investment management industry relative to SEC examination
resources, OCIE has developed a risk-based methodology that is uses to identify
“high risk” advisory firms and funds that are selected for routine examinations.
Using its risk-rating system, OCIE assigns a risk level to each adviser based on:
(1) information contained in firms’ annual registration filings (Form ADV); (2)
assessment made during previous examinations of that entity; and/or (3) staff
evaluations or other risk criteria. OCIE’s Branch of Surveillance and Reporting
was created to, among other things, help monitor registered entities and develop
initial risk profiles based on certain quantitative inputs.

OCIE conducts routine examinations of investment advisers and investment
companies classified as “high risk” on a cycle. Once an investment adviser or
investment company is classified as “high risk, the firm is placed on a three-year
examination cycle. Currently, OCIE is not able to meet its three year goal
because of the work required during examinations and limited staff resources.

Sweep examinations scrutinize a specific activity, control, or compliance area at
a number of firms. The purpose of these examinations is to determine the
extent, scope, and danger of emerging risks in the regulated community. Sweep
examinations allow the staff to obtain a more comprehensive view of a particular
risk, assess the gravity of the risk, evaluate the compliance performance of
individual firms and compare it with that of their peers, and recommend
regulatory solutions.

Bernard Madoff Investment Securities, LLC (BMIS)

In September 2006, the Madoff firm, BMIS, was first dually registered with the
Commission as a broker-dealer and as an investment adviser. It was registered
as a broker-dealer on January 19, 1960 and as a registered investment adviser
on September 12, 2006. BMIS has been a member of the NASD (now FINRA)
since March 25, 1960. The firm was also a member of other self-regulatory
organizations and the Securities Investor Protection Corporation (SIPC). The

Review of Commission’s Process For Selecting IA & Inv Co. for Exams   November 19, 2009
Report No. 470
                                         Page 15
firm was organized as a limited liability company and was almost wholly owned
by its principal, Bernard L. Madoff, and members of his family. Many of the
positions at BMIS, including legal and compliance positions, were staffed by
Madoff’s relatives. BMIS did not have an internal audit department. Any internal
audits were conducted by the firm’s own back office personnel. The firm’s
outside auditor was a small and relatively unknown firm.

Commission Examinations of Madoff. Prior to Madoff’s admission that he was
running a Ponzi scheme in December 2008, the SEC conducted two
investigations and three examinations that could have revealed that Madoff was
operating a Ponzi scheme. These investigations and examinations were based
on detailed and credible complaints that raised the possibility that Madoff was
misrepresenting his trading and could have been operating a Ponzi scheme.

After Madoff admitted to operating a Ponzi scheme, OCIE opened a cause
examination of BMIS’s investment advisory business.

First Enforcement Investigation and Examination
The first Enforcement investigation and first examination were conducted in 1992
after the SEC received information that led it to suspect that Avellino & Bienes, a
firm for which Madoff was managing money, was selling unregistered securities
and conducting a Ponzi scheme. The SEC’s investigation focused on Avellino &
Bienes and did not investigate the possibility that Madoff was the one who was in
fact operating the Ponzi scheme.

During the course of its investigation of Avellino & Bienes, the SEC conducted an
examination of BMIS. The examination was limited to verifying that BMIS was
properly segregating Avellino & Bienes’ October 1992 month-end securities
positions in BMIS’s segregated accounts at the Depository Trust Company
(DTC). In conducting its examination, the examiners relied exclusively on DTC
records produced by BMIS.

Two Parallel OCIE Cause Examinations
In 2004 and 2005, the SEC’s examination unit, OCIE, conducted two parallel
cause examinations of BMIS. The 2004 examination was initiated by a complaint
that OCIE received from a manager of a hedge fund. OCIE focused its
examination on the possibility that BMIS was front-running. 4 However, the
examination never determined if BMIS was in fact front-running, the examination
was never officially closed, and OCIE did not produce an examination report.
4
   Front-running is the practice whereby one executes a trade with advance knowledge of pending orders
from other investors.

Review of Commission’s Process For Selecting IA & Inv Co. for Exams                 November 19, 2009
Report No. 470
                                               Page 16
During the 2004 examination, the examiners raised the issue of whether BMIS
was acting as an unregistered investment adviser. It appeared to the assistant
director responsible for the examination that Madoff and his firm were attempting
to evade investment adviser registration, and the examination was expanded to
examine the investment adviser issue. A member of the examination team
drafted a memorandum about whether BMIS met the definition of investment
adviser, but the memorandum was never finalized and the team did not pursue or
resolve the issue of BMIS’s investment adviser status.

The 2005 examination was conducted by the SEC’s New York Regional Office
(NERO) based on the SEC’s review of a series of internal e-mails between
employees at another SEC registrant. An investment management examiner in
NERO had been conducting a routine examination of an unrelated registrant
when he discovered internal e-mails that raised questions about whether Madoff
was involved in illegal activity involving managed accounts. These internal
e-mails described the red flags the registrant’s employees identified while
performing due diligence on their Madoff-related investment, including Madoff’s
highly incredible fills for equity trades, his misrepresentation of his options
trading, his secrecy, his auditor, his highly consistent and non-volatile returns
over several years, and his fee structure.

Despite the allegations about Madoff’s management of customer accounts, like
the 2004 examination, the 2005 examination was focused on whether BMIS was
front-running. Also similar to the conduct of the 2004 examination, NERO
examiners began researching the issue of whether Madoff should be registered
as an investment adviser due to his investment discretion over certain hedge
fund accounts, but the investment adviser registration issue was not pursued or
resolved. The supervisor of the examination determined that the examiners
should not pursue the investment adviser issue because the examiners had
already spent several months on the examination and the supervisor felt that
Madoff would likely fall into the investment adviser exclusion for broker-dealers
and not be required to register. Neither the 2004 nor the 2005 examination
teams consulted with the Division of Investment Management regarding BMIS’s
investment adviser status. When the Division of Investment Management was
contacted in 2006 during Enforcement’s investigation of Madoff and his firm, the
Division of Investment Management opined that BMIS did meet the definition of
Investment Adviser and was required to register with the Commission.

In addition, there were initial significant delays in the commencement of both the
2004 and 2005 cause examinations. The scope of both examinations was
narrowly focused on the possibility of front-running, with no significant attempts
made to analyze the numerous red flags about Madoff’s trading and returns.



Review of Commission’s Process For Selecting IA & Inv Co. for Exams   November 19, 2009
Report No. 470
                                         Page 17
Both examinations were open at the same time in different offices without either
office knowing the other one was conducting an identical examination. In fact,
Madoff himself informed one of the examination teams that the other examination
team had already received certain requested information. Both examinations
concluded with numerous unresolved questions and without any significant
attempt to examine the possibility that Madoff was misrepresenting his trading
and operating a Ponzi scheme.

2006 Enforcement Investigation

Enforcement formally opened an investigation of BMIS in January 2006, based
upon a detailed complaint that Harry Markopolos, an independent fraud
investigator, provided to Enforcement in 2005. Since 2000, Markopolos had
been providing credible complaints to Enforcement analyzing why Madoff must
be running a Ponzi scheme. Markopolos’ 2005 Complaint was entitled “The
World’s Largest Hedge Fund is a Fraud” and detailed approximately 30 red flags
indicating that Madoff was operating a Ponzi scheme, a scenario it described as
“highly likely.” The red flags included the impossibility of Madoff’s returns,
particularly the consistency of those returns, and the unrealistic volume of
options Madoff represented that he had traded.

Although Markopolos’ complaint focused on why Madoff’s returns could not be
legitimate, the NERO Enforcement team investigating Markopolos’ complaint
decided to open the matter to investigate (1) whether BMIS, a registered broker-
dealer, provided investment advisory services to large hedge funds in violation of
the registration requirements of the Investment Advisers Act of 1940, and (2)
whether BMIS engaged in any fraudulent activities in connection with these
services.

During its investigation, the staff learned from a broker-dealer examiner that
during a recent examination of BMIS by NERO’s broker-dealer examination staff,
Madoff failed to disclose to the staff both the nature of the trading conducted in
the hedge fund accounts and also the number of such accounts at BMIS.

When closing its investigation in 2007, the Enforcement staff stated that they had
“found no evidence of fraud” but “did find, however, that BMIS acted as an
[unregistered] investment adviser to certain hedge funds, institutions, and high
net worth individuals in violation of the registration requirements of the Advisers
Act.” The Enforcement staff also found that Madoff’s largest hedge fund client,
Fairfield Greenwich Group (FGG), “did not adequately disclose to its investors
[BMIS’s] advisory role and merely described [BMIS] as an executing broker to
FGG’s accounts.”


Review of Commission’s Process For Selecting IA & Inv Co. for Exams   November 19, 2009
Report No. 470
                                         Page 18
As a result of this investigation and discussions with SEC staff, BMIS filed Part 1
of its Form ADV with the Commission on August 25, 2006, and its registration as
an investment adviser became effective on September 12, 2006. In addition,
FGG revised its disclosures to investors to reflect BMIS’s advisory role. In its
Closing Recommendation, Enforcement stated that it recommended closing the
investigation because both BMIS and FGG voluntarily remedied the violations
that the Enforcement staff had identified, and the staff had determined that the
violations were not so serious as to warrant an Enforcement action or further
investigation.

BMIS’s Form ADV Filings. BMIS filed its first Form ADV with the Commission
on August 25, 2006, and this filing became effective on September 12, 2006.
BMIS subsequently made an annual filing on January 24, 2007, an amended
filing on March 8, 2007, and an annual filing on January 7, 2008. 5 As described
later in the report, these filings contained false information.

Objectives
In light of the findings in the OIG’s August 31, 2009 Report of Investigation
entitled “Investigation of Failure of the SEC to Uncover Bernard Madoff’s Ponzi
Scheme,” the OIG conducted a review of the Commission’s process for selecting
which investment advisers and investment companies to examine. The
objectives of the review were to:

     •   Determine the Commission’s rationale for not performing an examination
         of BMIS’s investment advisory business soon after the firm registered as
         an investment adviser in 2006; and
     •   Make recommendations to improve OCIE’s process for selecting
         investment advisers and investment companies for examination.




5
  An Investment Adviser’s first Form ADV filing is not effective upon filing. All subsequent Form ADV filings
are effective on the filing date.

Review of Commission’s Process For Selecting IA & Inv Co. for Exams                    November 19, 2009
Report No. 470
                                                 Page 19
Findings and Recommendations
Finding 1: OCIE’s Risk Rating Process Did Not
Provide for a Routine Examination of BMIS
Because BMIS Was Classified As a Medium Risk
Firm.
        OCIE never initiated a routine examination of BMIS primarily
        because OCIE rated BMIS as a “medium risk” firm based on
        its answers to certain Form ADV questions. OCIE only
        examines a small portion of randomly selected firms that are
        designated as low and medium risk. BMIS was never
        randomly selected.

        OCIE’s goal is to conduct routine examinations of “high risk”
        firms within three years of a firm’s receipt of such
        designation.

OCIE’s Risk Rating Classifications. OCIE assigns each registered investment
adviser a “low,” “medium,” or “high” risk rating. OCIE started this practice in 2003
and fully implemented it in fiscal year 2004. The risk rating is initially based on
each adviser’s response to certain questions in Form ADV Part 1 (Form ADV
rating). Based on these answers, OCIE assigns a score for each answer. The
answer to only one question on Form ADV has the potential to result in a
negative point value. The cumulative value of all of the points culminates into an
overall “low,” “medium,” or “high” risk rating. Ratings are assigned as follows:

OCIE assigns the risk scores to firms through an automated means, whereby
each adviser’s Form ADV information is uploaded into a pre-formatted Excel
spreadsheet. Using pre-calculated fields, once the Form ADV information
populates the Excel spreadsheet, an adviser’s risk score for each pertinent
question and an adviser’s overall risk score is calculated.

When BMIS registered as an investment adviser in 2006, BMIS was classified as
“medium risk,” based on its answers to the questions provided on its Form ADV
Part 1. 6 BMIS filed two subsequent Form ADVs in 2007 and 2008. Both of these
Form ADVs resulted in BMIS being assigned a “medium risk” designation 7 in
2007 and 2008 as well. Only firms categorized as “high risk” trigger routine OCIE
6
  BMIS made misrepresentations on several parts of Form ADV, as discussed in Finding 3 of this report.
7
  The Commission does not disclose what risk rating a particular investment adviser or investment company
has received.

Review of Commission’s Process For Selecting IA & Inv Co. for Exams                November 19, 2009
Report No. 470
                                               Page 20
examinations within three years of receiving the “high risk” rating. As discussed
later in this report, BMIS made misrepresentations on its Form ADV filings and
had it answered truthfully, BMIS may have been classified as “high risk.”

To ascertain the Form ADV rating, OCIE uses an algorithm to calculate a
numeric score for each firm based on certain affiliations, business activities,
compensation arrangements, and other disclosure items that could pose conflicts
of interest. 8 Examples include participation or interest in client transactions,
managing portfolios for individuals, and receiving performance fees. OCIE
determines the risk profile of all registered investment advisers every year using
the risk algorithm.

Although the risk algorithm allows OCIE to determine an investment adviser’s
relative risk profile in the absence of an examination risk rating, it is potentially
limited because it does not measure the effectiveness of the investment adviser’s
compliance controls, which are designed to mitigate conflicts of interest or other
risks that could harm investors. Rather, it relies on information that serves
largely as proxy measures of the firm’s compliance-related controls. OCIE has
recognized these limitations and taken some steps to evaluate the effectiveness
of its methodology. 9 However, to date, OCIE has only made limited changes to
its risk rating process to resolve this issue.

OCIE may also develop a risk rating for an investment adviser based upon
information obtained through an examination (OCIE examination rating). The
examination rating is weighted more heavily than the Form ADV rating since it is
based upon more complete information. The examination rating may differ from
the Form ADV rating in the following ways:

    •   Routine examination. A routine examination may cause an investment
        adviser’s examination rating to be higher or lower than or to stay the same
        as the Form ADV rating. OCIE represented that it is not uncommon for an
        examination rating to be lower than a Form ADV rating, especially if an
        OCIE examination finds that an adviser has good controls in place to
        mitigate risks.
    •   A “cause” or “sweep” examination. Because these examinations only
        have a narrow focus, OCIE will rarely lower a risk rating based on these
        examination results. A cause or sweep examination will only result in an
        examination rating being higher or the same as a Form ADV rating.


8
  The risk algorithm, developed by OCIE and the SEC Office of Economic Analysis (OEA), is a formula
using values of various factors to derive a relative ranking for the firm’s compliance risk.
9
  General Accountability Office Report No. 07-1053: Securities and Exchange Commission: Steps Being
Taken to Make Examination Program More Risk-Based and Transparent, August 2007, page 12.

Review of Commission’s Process For Selecting IA & Inv Co. for Exams             November 19, 2009
Report No. 470
                                             Page 21
Ultimately, staff in the regional office responsible for overseeing the activities of
an adviser is able to adjust upward or downward the risk profile for an adviser.
These determinations may be based on the staff’s assessment of the adviser
derived from various sources, both internal and external sources. 10 Regional
offices develop a final examination plan for each fiscal year. During the year,
regional offices may interact with additional information that would cause a firm’s
risk level to be adjusted upward (i.e. a cause examination).

The largest investment advisers, based upon the dollar amount of assets under
management, have an OCIE examination rating of “high” by default. The ratings
of these firms based on Form ADV, however, may be different. According to
Form ADV filings, the assets under management of some of the largest firms hit
$1.2 trillion in FY 2008.

BMIS Was Classified as a Medium Risk Investment Adviser. BMIS reported
assets under management of $11.7 billion, $13.2 billion, and $17.1 billion on its
2006, 2007, and 2008 Form ADV filings, respectively. As a result, BMIS was
never automatically classified as “high risk.”

Further, because OCIE never conducted a formal examination of BMIS’s
investment advisory business, 11 OCIE never developed a risk rating of BMIS
based on an OCIE examination. Therefore, given the above, OCIE’s rating of
BMIS was “medium” – the same as BMIS’s Form ADV rating. We found this
problematic because BMIS was examined and investigated by OCIE and
Enforcement repeatedly, BMIS was found to be operating as an (unregistered)
investment adviser, and OCIE and Enforcement found that Madoff lied about
BMIS’s advisory role. Our review found that even though OCIE did not
specifically examine BMIS’s advisory business, OCIE should have assigned a
higher examination rating to BMIS, based on the results of OCIE’s and
Enforcement’s prior examinations and findings.

Risk Ratings of Registered Investment Advisers. Table 2 shows the risk
ratings of the registered investment advisers as of September 30, 2008,
according to Form ADV and OCIE examinations.




10
   Sources of information that may be reviewed by the staff include, among others, SEC filings, relevant tips
and complaints, publicly available news and media reports, as well as internally generated analysis of
information prepared by OCIE and other SEC Offices and Divisions.
11
   OCIE never formally examined BMIS’s investment advisory business prior to Madoff’s confession that he
was running a Ponzi scheme. However, OCIE and Enforcement did look at several aspects of BMIS’s
advisory business during their examinations and investigations. After Madoff’s confession in December
2008, OCIE initiated a formal cause examination of BMIS’s investment advisory business.

Review of Commission’s Process For Selecting IA & Inv Co. for Exams                    November 19, 2009
Report No. 470
                                                 Page 22
Table 2: Suggested Investment Adviser Risk Ratings According to Form
ADV and OCIE Examinations
  Risk Level    Per Filings  Percent       Per ADV and       Percent
               (Form ADV) of Total      Supplemental Data of Total
                                        (Including Exams)
      Low
     Medium
      High                                     9%                                           11%
      Total                11,292             100%                  11,292                  100%
Source: OIG Generated based on OCIE information


OCIE’s Process for Examining Investment Advisers and Investment
Companies. Between 1998 and 2003, OCIE routine examinations accounted for
about 90 percent of OCIE examinations. During this period, OCIE generally tried
to examine each firm at least once every five years. However, the growth in the
number of investment advisers, from 5,700 to about 7,700, and the breadth of
their operations, did not allow OCIE to maintain this routine examination cycle.
Also, OCIE concluded that routine examinations were not the best tool for
identifying emerging compliance problems because firms were selected for
examination based predominately on the passage of time and not on their
particular risk characteristics. 12

Around 2004, OCIE began implementing a risk-based approach to examining
investment advisers and investment companies. OCIE believes this approach
better ensures that OCIE concentrates its resources on higher risk advisers and
investment companies. OCIE shifted its focus from performing routine
examinations of all registered investment advisers and investment companies,
regardless of compliance risks, to attempting to examine advisers and
investment companies that receive a “high risk” rating at least once every three
years. Advisers rated as “high risk” comprise about ten percent of registered
investment advisers. 13

For the remaining “lower risk” advisers and investment companies (those
classified as low and medium risk), each year OCIE coordinates with economists
at the Commission to generate a random sample of advisers and investment
companies for OCIE to potentially examine. All of the lower risk advisers that
were registered as of September 2006, 2007 and 2008 and had not been
recently examined were placed in separate pools for each year. From these
pools, either the Commission’s Office of Economic analysis or its Office of Risk

12
   General Accountability Office Report No. 07-1053: Securities and Exchange Commission: Steps Being
Taken to Make Examination Program More Risk-Based and Transparent, August 2007, page 9.
13
   Examinations are initiated based on each adviser’s risk profile. Examinations of investment companies
are conducted concurrently with examinations of their advisers. At a minimum, however, investment
companies will be deemed “high risk” if the funds have not been examined within last seven years.

Review of Commission’s Process For Selecting IA & Inv Co. for Exams                 November 19, 2009
Report No. 470
                                               Page 23
Assessment randomly selected 400-500 advisers for potential routine OCIE
examinations. BMIS was included in the pools for each of the three years, but
was never randomly selected. 14 Even if BMIS had been randomly selected,
there was no guarantee that Madoff’s advisory business would have been
examined on a routine basis; being part of the group of randomly selected
advisers only signifies that these advisers are placed on a list for potential
examination. According to OCIE, each year the regional offices conduct routine
examinations of about 200 of the randomly selected firms.

The effectiveness of OCIE’s risk-based approach depends on its ability to
accurately assess the level of risk at individual firms because inaccurately
categorizing firms as lower-risk could result in harmful practices persisting
undetected. 15

Conclusion
BMIS was classified as a medium risk firm on the basis of the answers it
provided in its Form ADV. In addition, because OCIE had not conducted a
formal examination of BMIS’s advisory activities, BMIS’s rating was deemed to
be “medium risk,” matching the “medium risk” rating per BMIS’s Form ADV.

However, as discussed later in this report, BMIS’s operations (including issues
directly related to its investment advisory operations) had been examined
numerous times by OCIE and Enforcement, BMIS was found to be operating as
an (unregistered) investment adviser, and OCIE and Enforcement found that
Madoff misrepresented BMIS’s advisory role and activities.

BMIS’s registration as an investment adviser was prompted by an Enforcement
investigation, which should have automatically resulted in BMIS receiving an
initially higher risk rating than it would have received had its registration not been
a condition of Enforcement closing its investigation. Moreover, findings from
OCIE’s prior cause examinations of BMIS and from Enforcement’s investigations
involving BMIS should have prompted OCIE to question BMIS’s “medium” Form
ADV rating. Due to OCIE and Enforcement’s prior examinations and
investigations, OCIE should have scheduled a cause examination of Madoff
immediately upon his registration as an investment adviser. As discussed later in
the report, it appears that OCIE’s investment adviser unit was not adequately
informed of the multiple issues that arose with Madoff during prior OCIE
examinations and Enforcement investigations.

14
   BMIS’s placement in the risk assessment process did not have an effect on the likelihood that BMIS
would be chosen for a cause or sweep examination.
15
   General Accountability Office Report No. 07-1053: Securities and Exchange Commission: Steps Being
Taken to Make Examination Program More Risk-Based and Transparent, August 2007, pages 3-4.

Review of Commission’s Process For Selecting IA & Inv Co. for Exams              November 19, 2009
Report No. 470
                                              Page 24
        Recommendation 1:

        The Office of Compliance Inspections and Examinations (OCIE) should
        implement a procedure requiring, as part its process for creating a risk
        rating for an investment adviser, that OCIE staff perform a search of
        Commission databases containing information about past examinations,
        investigations, and filings related to the investment adviser.

        Recommendation 2:

        The Office of Compliance Inspections and Examinations (OCIE) should
        change the risk rating of an investment adviser based on pertinent
        information garnered from all Divisions and Offices of the Commission,
        including information from OCIE examinations and Enforcement
        investigations, regardless of whether the information was learned during
        an examination conducted to look specifically at a firm’s investment
        advisory business.


Finding 2: OCIE Should Have Immediately
Scheduled a Cause Examination of BMIS when
BMIS Registered as an Investment Adviser.
        BMIS registered as an investment adviser in 2006 as a
        condition of Enforcement closing its investigation. The
        Enforcement investigation that began in 2006 found that
        BMIS acted as an (unregistered) investment adviser to
        certain hedge funds, institutions, and high net worth
        individuals in violation of the registration requirements of the
        Advisers Act.

Enforcement stated that BMIS’s investment adviser registration was a “good
result” because it would expose Madoff and his firm to “extra regulatory scrutiny.”
However, there is no indication that anyone on the Enforcement staff ever
suggested that OCIE’s investment adviser examination staff conduct a cause
                       16
examination of BMIS. This fact is troubling because the Enforcement
investigation (which included the assistance of an OCIE broker-dealer examiner)
revealed that Madoff did not fully disclose either the nature of the trading BMIS


16
   OIG Investigative Report: Investigation of Failure of the SEC to Uncover Bernard Madoff’s Ponzi Scheme
– Public Version, Report No. 509, August 31, 2009 (hereinafter “OIG Investigative Report No. 509”), page
357.

Review of Commission’s Process For Selecting IA & Inv Co. for Exams                November 19, 2009
Report No. 470
                                               Page 25
                                                                                                     17
conducted in hedge fund accounts or the number of such accounts at BMIS,
that BMIS commingled billions of dollars of equities among its investment
                                                                  18
advisory accounts and with its broker-dealer proprietary account, and that the
investor disclosures of BMIS’s largest hedge fund client did not adequately
                               19
describe BMIS’s advisory role. Some of the problems identified in this
investigation related to BMIS’s investment advisory operations; therefore, both
Enforcement and OCIE’s broker-dealer examination staff should have promptly
notified OCIE’s investment adviser examination unit. At that point, OCIE should
have immediately scheduled a cause examination.

Enforcement Investigation of Madoff. On January 4, 2006, Enforcement
opened a formal investigation of BMIS. The investigation was instigated by a
November 2005 detailed complaint from Harry Markopolos, an independent fraud
investigator, who alleged that Madoff was running a Ponzi scheme and that the
returns reported by BMIS’s hedge fund clients were the result of fraud
perpetuated by Madoff and his firm. Enforcement also learned from an OCIE
broker-dealer examiner that BMIS did not fully disclose to OCIE examination staff
the nature of the trading conducted in BMIS’s hedge fund accounts or the
number of accounts that BMIS operated.

According to the Enforcement team assigned to the investigation, the
investigation was opened to determine (1) whether BMIS, a registered broker-
dealer, provided investment advisory services to large hedge funds in violation of
the registration requirements of the Investment Advisers Act of 1940, and (2)
whether BMIS engaged in any fraudulent activities in connection with these
services.

During its investigation, the staff learned from a broker-dealer examiner that
during a recent examination of BMIS by NERO’s broker-dealer examination staff,
Madoff failed to disclose to the staff both the nature of the trading conducted in
the hedge fund accounts and also the number of such accounts at BMIS.

When closing its investigation in 2007, the Enforcement team stated that it had
“found no evidence of fraud” but “did find, however, that BMIS acted as an
[unregistered] investment adviser to certain hedge funds, institutions, and high
net worth individuals in violation of the registration requirements of the Advisers
Act.” The Enforcement team also found that BMIS’s largest hedge fund client,
FGG, “did not adequately disclose to its investors [BMIS’s] advisory role and
merely described [BMIS] as an executing broker to FGG’s accounts.”

17
   Enforcement learned of this non-disclosure during a preliminary inquiry, prior to opening the 2006 Madoff
investigation.
18
   OIG Investigative Report No. 509, page 358.
19
   FGG subsequently revised its disclosures to investors to reflect BMIS’s advisory role.

Review of Commission’s Process For Selecting IA & Inv Co. for Exams                   November 19, 2009
Report No. 470
                                                Page 26
As a result of the investigation and discussions with SEC staff, BMIS filed its first
Form ADV with the Commission on August 25, 2006, and its registration as an
investment adviser became effective on September 12, 2006. FGG also revised
its disclosures to investors to reflect BMIS’s advisory role.

In its Closing Recommendation, Enforcement stated that it recommended closing
the investigation because both BMIS and FGG voluntarily remedied the violations
that the SEC identified, and the SEC determined that the violations were not so
serious as to warrant an Enforcement action or further investigation.

Enforcement stated that BMIS’s registration as an investment adviser was a
“good result” because it would expose BMIS to “extra regulatory scrutiny.”
However, there is no indication that anyone on the Enforcement staff ever
suggested that OCIE’s investment adviser examination staff conduct an
examination of BMIS. 20 This fact is troubling because the investigation identified
the following significant issues:

             •    Madoff did not fully disclose to SEC staff either the nature of the
                  trading conducted in hedge fund accounts controlled by BMIS or
                  the number of such accounts at BMIS. 21
             •    BMIS commingled billions of dollars of equities among its
                  investment advisory accounts and with BMIS’s broker-dealer
                  proprietary account. This commingling should have been of serious
                  concern to the SEC because it is a violation of the custody rule for
                  investment advisers. 22
             •    BMIS acted as an investment adviser to certain hedge funds,
                  institutions, and high net worth individuals, in violation of the
                  requirements of the Advisers Act.
             •    FGG’s disclosures to its investors did not adequately describe
                  BMIS’s advisory role and described BMIS as merely an executing
                  broker to FGG’s accounts. 23

The 2006 Enforcement investigation of BMIS was comprised of staff at NERO
who were assisted by one OCIE broker-dealer examiner who had previously
conducted an examination of BMIS and identified numerous misrepresentations
made by Madoff. Many of the problems identified in the Enforcement
investigation related to BMIS’s investment advisory operations; therefore, OCIE’s
20
   OIG Investigative Report No. 509, page 357.
21
   Enforcement learned of this non-disclosure during a preliminary inquiry, prior to opening the 2006 Madoff
investigation.
22
   OIG Investigative Report No. 509, page 358.
23
   FGG subsequently revised its disclosures to investors to reflect BMIS’s advisory role.

Review of Commission’s Process For Selecting IA & Inv Co. for Exams                   November 19, 2009
Report No. 470
                                                Page 27
advisory unit should have been provided with the information that was learned in
the investigation upon BMIS’s application for investment adviser registration.
Once this information was brought to the attention of OCIE’s adviser unit, OCIE
should have immediately scheduled a cause examination of BMIS.

We believe that Enforcement’s failure to communicate with OCIE’s investment
adviser unit and OCIE’s broker-dealer examination unit’s failure to communicate
with its investment adviser examination unit is particularly troubling and led to
OCIE’s failure to conduct an examination of BMIS’s advisory business. An OCIE
Branch Chief testified that BMIS might have been subject to a “cause exam”
immediately after it registered had the investment adviser examination staff been
informed that Madoff had made misrepresentations to Enforcement and OCIE
broker-dealer examination staff. 24

OCIE initiates cause examinations when firms are believed to be in violation of
the federal securities laws. In these examinations, staff review irregular activity,
determine if violations have occurred, gather supporting documentation, perform
interviews, and prepare analyses as evidence of violations. OCIE’s broker-
dealer unit was already aware that BMIS had violated the Advisers Act, failed to
disclose pertinent aspects of its business, and commingled accounts. This fact
should have been communicated to OCIE’s investment adviser unit as soon as
Enforcement prompted BMIS to register as an investment adviser in 2006, and a
cause examination should have been immediately scheduled.

OCIE finally opened up a cause examination of BMIS’s investment advisory
business after Madoff admitted to operating a Ponzi scheme in December 2008.

           Recommendation 3:

           The Division of Enforcement and the Office of Compliance Inspections
           and Examinations should establish and adhere to a joint protocol providing
           for the sharing of all pertinent information (e.g., securities laws violations,
           disciplinary history, tips, complaints and referrals) identified during the
           course of an investigation or examination or otherwise.

           Recommendation 4:

           The Office of Compliance Inspections and Examinations (OCIE) should
           establish a procedure to thoroughly evaluate negative information that it
           receives about an investment adviser and use this information to
           determine when it is appropriate to conduct a cause examination of an


24
     OIG Investigative Report No. 509, page 357.

Review of Commission’s Process For Selecting IA & Inv Co. for Exams     November 19, 2009
Report No. 470
                                                   Page 28
       investment adviser. OCIE should ensure its procedure provides for timely
       opening of a cause examination.

       Recommendation 5:

       When the Office of Compliance Inspections and Examinations (OCIE)
       becomes aware of negative information pertaining to an investment
       adviser, OCIE should examine the investment adviser’s Form ADV filings
       and document and investigate discrepancies existing between the
       adviser’s Form ADV and information that OCIE previously learned about
       the registrant.


Finding 3: BMIS Made Misrepresentations on its
Form ADV Filings, and OCIE Should Have Been
Aware of These Misrepresentations.
       BMIS consistently made misrepresentations on its Form
       ADV filings, especially by understating its assets under
       management and the number of clients to whom BMIS
       provided investment advisory services. BMIS also
       misrepresented the nature of its advisory business and failed
       to disclose the entities that referred business to BMIS.

Prior to BMIS’s first Form ADV Filing in August 2006, OCIE should have been
aware that Madoff lied to OCIE and Enforcement staff during the course of their
examinations and investigations. Further, an Enforcement investigation found
that BMIS was acting as an investment adviser without being registered as such.
As a result of this investigation, BMIS registered as an investment adviser.
Nevertheless, OCIE did not adequately scrutinize any of BMIS’s Form ADV
filings. Had OCIE done so, OCIE should have concluded that BMIS made
misrepresentations in the Form ADV filings.

Had BMIS provided accurate information on its Form ADVs, it may have been
classified as a “high risk” adviser and therefore subject to a routine OCIE
examination within three years of receiving a “high risk” rating.

We found that OCIE’s risk rating process does not give adequate weight to an
investment adviser’s level of assets under management and the number of
clients that receive investment advisory services. We believe that advisers with
more assets under management and more clients who receive advisory services
should receive progressively higher risk scores.

Review of Commission’s Process For Selecting IA & Inv Co. for Exams   November 19, 2009
Report No. 470
                                         Page 29
We reviewed Part 1 of BMIS’s 2006, 2007, and 2008 filings. BMIS reported the
same information in each filing with only two exceptions. In its 2006 filing, BMIS
reported that it did not provide investment advisory services to any clients; in
2007 and 2008 filings, BMIS reported 11-25 clients for this category. In its 2006
through 2008 filings, BMIS reported assets under management of $11.7 billion,
$13.2 billion and $17.1 billion, respectively.

The SEC does not require registrants to file Part II of Form ADV with the
Commission. The OIG obtained Part II from SEC examination staff.

The following is a summary of the lies and misrepresentations that we identified
through discussions with Commission management. 25

Misrepresentations in Part 1 of Form ADV (2006, 2007 and 2008
filings)
     1) Item 5 Part B(3) asks: “Approximately how many firms or other persons
        solicit advisory clients on your behalf?” BMIS selected “0.”

        In September 2009, Commission management told the OIG that the SEC
        had evidence of at least two other firms that referred business to BMIS.
        One client, Cohmad, referred business to Madoff at the time of BMIS’s
        Form ADV filings. Avellino & Bienes referred business to BMIS in 1992,
        but no action was taken to determine if it or any successor firm referred
        business to BMIS at the time of BMIS’s ADV filings.

        Risk Rating Point Score

        BMIS’s risk score for this question would have been higher had it
        accurately disclosed its practices. BMIS was assigned          points for this
        answer. Had BMIS disclosed at least        clients, its risk score would have
        been

     2) Item 5 Part C asks: “To approximately how many clients did you provide
        investment advisory services during your most recently completed fiscal
        year?” BMIS selected “0” in the 2006 filing and “11-25” in the 2007 and
        2008 filings.

        If Part 1 of BMIS’s 2006 ADV were to have been carefully reviewed,
        BMIS’s answer to this question should have raised serious questions and
        concerns, because it would have immediately appeared to a reviewer to
25
   For purposes of this report, “Commission Management” is defined as “senior officials (SK-15 and above)
such as Division Chiefs, Deputy/Associate/Assistant Directors, Office/Division heads, etc.”

Review of Commission’s Process For Selecting IA & Inv Co. for Exams                 November 19, 2009
Report No. 470
                                               Page 30
          be facially inaccurate. Although BMIS represented that it had provided no
          clients with advisory services during the past fiscal year, in BMIS’s
          response to the following question (Item 5 Part D), BMIS stated that its
          clients included high net worth individuals, banking or thrift institutions,
          pension and profit sharing plans, charitable organizations, and
          corporations or other businesses. BMIS also represented in response to
          Item 5 Part F that it had over $11 billion in assets under management.
          Consequently, had BMIS’s ADV been carefully reviewed, BMIS’s
          response to Item 5 Part C would have appeared dubious and raised
          questions that required further investigation.

          Moreover, on the face of its response, BMIS was taking the incredible
          position that it had provided no investment advisory services to clients in
          the past year – a position directly contrary to an express finding made by
          Enforcement. If Enforcement had made OCIE investment adviser
          examiners aware of its investigation and determination that BMIS did have
          advisory clients that BMIS had failed to disclose, then BMIS’s response
          should have raised immediate red flags with investment adviser
          examiners.

          In addition, OCIE broker-dealer examiners and Enforcement investigators
          had information as early as 2005 that could have been relied upon by
          investment adviser examiners to discredit BMIS’s response to the above
          item. The information included the following:

               •   On May 27, 2005, OCIE examiners discussed a discrepancy
                   involving a potential client of BMIS’s called “Auriga International.”
                   In an e-mail exchange, one OCIE examiner said that Madoff stated
                   that he was not familiar with Auriga International. The other OCIE
                   examiner thought this was “weird” because “Bloomberg reports
                   Auriga had discretionary accounts with B. Madoff.” 26
               •   In late 2005 and early 2006, an Enforcement investigation (which
                   was staffed with one OCIE examiner) found that Madoff lied about
                   the number and identity of his firm’s investors and withheld account
                   information from the examination staff. Madoff did not disclose to
                   the examination staff some of the accounts in which he
                   implemented his trading strategy. Further, on June 7, 2006, an
                   Enforcement staff person informed three other SEC staff persons
                   that Madoff had produced a list of 86 “previously undisclosed”
                   accounts, totaling $336.5 million. 27

26
     OIG Investigative Report No. 509, page 208.
27
     OIG Investigative Report No. 509, pages 319 and 321.

Review of Commission’s Process For Selecting IA & Inv Co. for Exams    November 19, 2009
Report No. 470
                                                Page 31
       After Madoff admitted to operating a Ponzi scheme, Commission
       management learned that BMIS had more than 4,000 active accounts
       (clients) as of December 2008.

       Risk Rating Point Score


                                        , BMIS’s risk weighting would have been
       unaffected.

       We believe that an investment adviser’s risk score should be progressively
       higher, based on the number of clients to whom an investment adviser
       provides services. As the pervasiveness of the harm caused by Madoff’s
       fraud illustrates, the more clients an adviser has, the greater the potential
       harm to investors. A key aspect of the SEC’s mission is to protect
       investors. Consequently, the number of clients an investment adviser has
       should be associated with a risk rating.

   3) Item 5 Part D: “What types of clients do you have? Indicate the
      approximate percentage that each type of client comprises of your total
      number of clients.” BMIS indicated the following:

                   •   High net worth individuals: 11-25%;
                   •   Banking or thrift institutions: up to 10%;
                   •   Pension and profit sharing plans (other than plan
                       participants): up to 10%;
                   •   Other pooled investment vehicles (e.g., hedge funds): 51-
                       75%;
                   •   Charitable organizations: up to 10%; and
                   •   Corporations or other businesses not previously listed: 11-
                       25%.

       In September 2009, Commission management told the OIG that this
       response was potentially a lie since it did not reflect the proportions from
       more than 4,000 BMIS accounts.

       Risk Rating Point Score

       BMIS’s risk score for this question would have been significantly higher
       had it accurately disclosed its practices. BMIS was assigned      points
       based on its answers. Assuming that BMIS misrepresented the types of

Review of Commission’s Process For Selecting IA & Inv Co. for Exams   November 19, 2009
Report No. 470
                                         Page 32
       clients he advised, the maximum number of points that could have been
       assigned to BMIS would have been    points.

   4) Item 5 Parts F(1) and F(2): “Do you provide continuous and regular
      supervisory or management services to securities portfolios? If yes, what
      is the amount of your assets under management and total number of
      accounts?” BMIS reported assets under management of $11.7 billion to
      $17.1 billion in BMIS’s filings between 2006 and 2008. In each year,
      BMIS reported only 23 accounts.

       As discussed in item number 2 above, as early as 2005, OCIE broker-
       dealer examiners believed that Madoff had under-reported the number of
       accounts that he managed, and in its 2005 investigation, Enforcement
       learned that Madoff had under-reported the number of accounts that he
       managed.

       After BMIS admitted to operating a Ponzi scheme in December 2008,
       Commission Management stated that BMIS severely underreported
       BMIS’s assets and that BMIS had more than 4,000 active accounts
       (clients) and over $60 billion in purported assets as of December 2008.

       Risk Rating Point Score

                                                    BMIS was assigned    points for its
       answer,



       OCIE assigns a limited number of points to all investment advisers that
       report at least $1 in assets under management. We believe this method is
       problematic because advisers with $100,000 in assets under management
       carry the same risk weight as those with significantly higher assets under
       management.



                                                                 We believe this
       method is problematic because advisers that carry $100,000 in assets
       under management carry the same risk weight as those that carry up to
       $277 billion. To illustrate this point, the 20 largest firms, by assets under
       management, receive an automatic risk rating of “high,” regardless of their
       individual scores. The twenty-first largest firm reported $273 billion in
       assets under management. This firm was assigned               points and rated a
       “medium” risk. Clearly, this firm appears to be riskier and pose more of a

Review of Commission’s Process For Selecting IA & Inv Co. for Exams   November 19, 2009
Report No. 470
                                         Page 33
          risk to the investing public than a firm that manages only $100,000 in
          assets.

      5) Item 8 Part C(3): “Do you or any related person have discretionary
         authority to determine the broker or dealer to be used for a purchase or
         sale of securities for a client’s account?” BMIS said “no.”

          OCIE had information as early as 2005 that it could have relied upon to
          discredit BMIS’s answer to this question.

          During a 2005 examination of BMIS, an OCIE broker-dealer examiner
          recalled that Madoff said he executed trades after hours in London,
          England. 28 Further, when an OCIE broker-dealer examiner drafted a list
          of questions to ask Madoff, he included a question requesting clarification
          about which “markets in London” Madoff was using to clear trades and
          how the associated securities settled. 29 An OCIE broker-dealer examiner
          informed Enforcement staff about Madoff’s representation that he
          executed trades for hedge funds in Europe. 30

          In September 2009, Commission management told the OIG that BMIS’s
          answer to this question was illogical, because if Madoff was supposedly
          executing trades with foreign brokers overseas, then BMIS was exercising
          some discretion regarding which foreign broker(s) to trade through. If
          BMIS’s answer was truly “no,” this fact would have meant that BMIS had
          no discretion regarding which broker-dealers to trade through.

          Risk Rating Point Score


                                          , BMIS’s risk weighting would have been
          unaffected.

      6) Item 8 Part F: “Do you or any related person, directly or indirectly,
         compensate any person for client referrals?” BMIS said “no.”

          OCIE had information as early as 2005 that it could have relied upon to
          discredit BMIS’s answer to this question.

          A 2005 OCIE examination found that Cohmad’s June 30, 2005 FOCUS
          Report (Form X-17A-5 Part III) identified the existence of a related-party

28
     OIG Investigative Report No. 509, page 192.
29
     OIG Investigative Report No. 509, page 204.
30
     OIG Investigative Report No. 509, page 277.

Review of Commission’s Process For Selecting IA & Inv Co. for Exams       November 19, 2009
Report No. 470
                                                   Page 34
          entity, owned by a minority shareholder that provided 90% of Cohmad’s
          revenues. Further, OCIE broker-dealer examiners identified substantial
          monthly checks from Madoff to Cohmad. The examiners never received a
          satisfactory response from Madoff as to why the checks were made to
          Cohmad and described Madoff’s explanation as “odd.” 31

          In September 2009, Commission Management told the OIG that BMIS did
          in fact compensate persons for such referrals, (e.g., BMIS compensated
          Cohmad Securities Corporation, an SEC-registered broker-dealer - Madoff
          was a minority owner of Cohmad). Further, the SEC’s investment adviser
          rules require one to disclose when compensation is paid for referrals.

          Risk Rating Point Score

          BMIS’s risk score for this question would have been significantly higher
          had it accurately disclosed its practices. BMIS was assigned      points for
          his answer. Had BMIS told the truth, BMIS’s risk score for this question
          would have been       points.

      7) Item 9 Part B(2): “Do any of your related persons have custody of any of
         your advisory clients’ securities?” BMIS said “no.”

          Madoff told the SEC examination and investigation staff different stories
          about where the equity trades for his investors were executed and
          cleared. 32 During the 2005 NERO examination, Madoff informed the
          examination staff that his London affiliate, Madoff Securities International
          Limited (MSIL), was settling the orders, and Barclays Capital in London
          was clearing the equity trades. 33 In September 2009, Commission
          management told the OIG that this response was false as Madoff was
          contending that a UK affiliate had custody of certain assets.

          Risk Rating Point Score

          BMIS’s risk score for this question would have been significantly higher
          had it accurately disclosed its practices. Madoff was assigned      points
          for his answer. Assuming Madoff lied in his Form ADV response, BMIS’s
          risk score for this question should have been     points.




31
     OIG Investigative Report No. 509, pages 177-178.
32
     OIG Investigative Report No. 509, page 315.
33
     OIG Investigative Report No. 509, page 315.

Review of Commission’s Process For Selecting IA & Inv Co. for Exams   November 19, 2009
Report No. 470
                                                Page 35
Misrepresentations in Part II of Form ADV (2008 filing)

Investment Advisers do not file Part II of Form ADV with the Commission, and
therefore OCIE does not assign any risk weighting to the answers provided by
advisers in Part II of Form ADV.

      8) Item 3 Part A(2) states: “Types of Investments. Applicant offers advice on
         the following: (check those that apply).” BMIS was engaged in OTC
         options trading, but BMIS did not check the box related to options.
         However, BMIS did check an “other” box and disclosed that BMIS traded
         index-based options.

          OCIE had information as early as 2005 that it could have relied upon to
          discredit BMIS’s response to the above item.

          A December 13, 2005, e-mail exchange between an Enforcement
          investigator and a broker-dealer examiner stated that Madoff lied to the
          examination staff by telling the staff that he stopped using options as part
          of his trading strategy in January 2004. Yet, BMIS’s client account
          statements showed trading in the S&P 100 Index options throughout 2004
          and up to October 2005, the last month for which data was produced. 34
          Enforcement staff further discussed this fact in e-mails dated December
          15, 2005. The Enforcement investigation was closed without the receipt of
          a complete (or convincing) explanation from Madoff about the
          discrepancy. 35

          Further, while Madoff claimed to have had billions of dollars invested in
          undocumented OTC options contracts, on January 23, 2006, Madoff told
          Enforcement that he had no documentation of options contracts other than
          what was produced (e.g., no written contract between purchaser and
          counter-party). 36

          In September 2009, Commission management told us that BMIS should
          probably have checked the box on Form ADV related to options and
          possibly another box called “securities traded over-the-counter.”

      9) Item 7 Part C: This item pertains to other business activities. BMIS
         checked a box that states: “The principal business of applicant or its
         principal executive officers involves something other than providing
         investment advice.”

34
     OIG Investigative Report No. 509, page 271.
35
     OIG Investigative Report No. 509, pages 272-273.
36
     OIG Investigative Report No. 509, page 285.

Review of Commission’s Process For Selecting IA & Inv Co. for Exams   November 19, 2009
Report No. 470
                                                Page 36
          According to Commission management, this response implies that BMIS
          was principally a market maker and secondarily an investment adviser. In
          reality, BMIS’s principal business was its advisory business, which was
          the business within which it operated the Ponzi scheme.

          OCIE had information in 2004 upon which it could have relied to show that
          BMIS’s response was, at best, misleading. In both the 2004 and 2005
          OCIE cause examinations, OCIE broker-dealer staff learned that BMIS’s
          advisory business was making significantly more money for BMIS than
          was its market making business. In fact, examiners conducting the 2005
          examination discovered that without the advisory business, BMIS would
          have been losing $10-20 million per year. 37

     10) Item 13B asks: “Does the applicant or a related person have any
         arrangements, oral or in writing, where it directly or indirectly compensates
         any person for client referrals?” BMIS answered “no.”

          Commission management told the OIG that BMIS was providing such
          compensation. For example, BMIS compensated Cohmad Securities, a
          registered broker-dealer that referred business to BMIS and in which
          Madoff had a minority interest.

     11) Commission management told the OIG that the narrative portions of
         BMIS’s Form ADV (Part II) contained “lies on their face” in reference to the
         description of BMIS’s business.

BMIS’s Overall Risk Score Would have Been Higher Had BMIS Accurately
Completed its Form ADV or Had OCIE Verified the Information. An analysis
of misrepresentations by BMIS with respect to all of the above items of Part 1 of
Form ADV demonstrates that BMIS’s risk-weighted score would have been
significantly higher had BMIS accurately completed Part 1 of Form ADV or had
SEC staff verified the information on BMIS’s Form ADV and identified the
misrepresentations. BMIS’s score based on accurate answers to Form ADV
questions may have given it a high risk rating. Thus, BMIS may have been
designated a “high risk” firm and subject to an OCIE examination within three
years of such a rating.

BMIS’s score was        based on its 2006, 2007, and 2008 Form ADV responses.
Were BMIS to have provided accurate answers, it would have received as many
as   additional points, bringing its overall score to  . A score of   or higher
equates to a “high risk” firm. Thus, BMIS may have been designated a “high risk”


37
     OIG Investigative Report No. 509, pages 103-04, 214.

Review of Commission’s Process For Selecting IA & Inv Co. for Exams   November 19, 2009
Report No. 470
                                                Page 37
firm had BMIS accurately completed Part 1 of Form ADV or had OCIE verified
the information on BMIS’s ADV.

While OCIE generally cannot take responsibility for investment advisers that
make misrepresentations on their Form ADV, in this case, due to the numerous
examinations and investigations already conducted either by OCIE or with the
assistance of OCIE, OCIE should have been aware that many of the statements
made by BMIS in its ADV contradicted the information they had learned about his
operations. In addition, since Enforcement actually concluded in its investigation
that Madoff failed to disclose to the examination staff both the nature of the
trading conducted in the hedge fund accounts and also the number of such
accounts at BMIS, BMIS’s Form ADV should have been carefully scrutinized for
lies and misrepresentations.

Had OCIE adequately reviewed any of BMIS’s Form ADVs, or even simply relied
upon the information about BMIS’s lies and misrepresentations that were
discovered during previous examinations and investigations, OCIE should have
learned that BMIS was a “high risk” firm that, at a minimum, should have been
subject to the three-year examination cycle.

       Recommendation 6:

       The Office of Compliance Inspections and Examinations (OCIE) should
       establish a procedure to thoroughly evaluate an investment adviser’s
       Form ADVs when OCIE becomes aware of issues or problems with an
       investment adviser. OCIE should document areas where it believes a
       Form ADV contains false information and initiate appropriate action, such
       as commencing a cause examination.

       Recommendation 7:

       The Office of Compliance Inspections and Examinations (OCIE) should
       re-evaluate the point scores that it assigns to advisers based on their
       reported assets under management. OCIE should assign progressively
       higher risk weightings to firms that have greater assets under
       management.

       Recommendation 8:

       The Office of Compliance Inspections and Examinations (OCIE) should
       re-evaluate the point scores that it assigns to firms based on their reported
       number of clients to which they provide investment advisory services.
       OCIE should assign progressively higher risk weightings to investment
       advisers that serve a larger number of clients.

Review of Commission’s Process For Selecting IA & Inv Co. for Exams   November 19, 2009
Report No. 470
                                         Page 38
Finding 4: Form ADV Should Require Additional
Information.
       Form ADV has not been substantively updated since 2000,
       when it was first required to be filed electronically with the
       Commission. We believe that OCIE could identify additional
       risk factors if registrants were required to include additional
       information in Form ADV about funds that the adviser
       manages, including information about fund performance and
       fund auditor. Further, the fund’s auditor should be required
       to file its opinion with the Commission.

Performance Information. Investment advisers are not currently required to
report to the SEC information regarding the performance of funds under
management for the current year or any prior years.


                        BMIS never provided performance information
                  thus, the Commission never received performance information
from BMIS.

If investment advisers were required to report performance information for the
current and prior years of operation, OCIE could analyze this information to
determine which investment advisers’ performance consistently fell outside the
normal parameters. OCIE could subsequently assign progressively higher risk
weights to performance outliers, in accordance with how far off a firm’s
performance was from established parameters.

BMIS was a performance outlier in that the returns it reported to investors were
consistently and significantly higher than any of the benchmark indexes.
Moreover, unlike the market and its competitors, BMIS rarely reported negative
returns.

Information about Hedge Funds. Currently, the Commission is only able to
gather a limited amount of information about hedge funds. According to
Commission management, the risk of fraudulent activities is greatest with hedge
funds, and most Ponzi schemes occur through hedge funds. It could be
beneficial if investment advisers were required to report on Form ADV
information about their hedge funds’ service providers, custodians, auditors, and
administrators. If OCIE detected a problem with one of these entities, OCIE
could then electronically review additional Form ADVs to determine which
investment advisers were using the same entities and take appropriate action.

Review of Commission’s Process For Selecting IA & Inv Co. for Exams   November 19, 2009
Report No. 470
                                         Page 39
Further, investment advisers should report on Form ADV current auditors and
amend the form when an auditor is changed. OCIE could review this information
to determine whether a firm’s auditor is from a reputable accounting firm.

BMIS’s auditor was part of a small, unknown firm and was alleged to be a related
party to Madoff. The OIG investigation regarding why the SEC failed to uncover
Madoff’s Ponzi scheme concluded that BMIS’s auditor was not independent; and
therefore, there was no assurance that BMIS’s audits were properly conducted.
After Madoff confessed to running a Ponzi scheme, a New York staff attorney in
Enforcement investigated Madoff’s accountant, David Friehling. Within a few
hours of obtaining the work papers, the staff attorney determined that no audit
work had been done and testified that there were red flags, which included the
absence of any formal work papers, the work papers that were produced did not
comply with generally accepted auditing standards, and there was almost nothing
indicating that any audit work had been performed. 38

Finally, an investment adviser’s auditor should file information with the SEC
relaying the auditor’s opinion. This filing would provide OCIE with independent
information regarding the safety of client assets.

If this additional information was included in Form ADV and properly analyzed, it
would allow OCIE to more readily identify red flags associated with investment
advisers.

          Recommendation 9:

          The Office of Compliance Inspections and Examinations (OCIE) should
          recommend to the Chairman’s office that it institute a Commission
          rulemaking that would require the following additional information to be
          reported as part of Form ADV:

               •   Performance information;
               •   A fund’s service providers, custodians, auditors and administrators,
                   and applicable information about these entities;
               •   A hedge fund’s current auditor and any changes in the auditor; and
               •   The auditor’s opinion of the firm.




38
     OIG Investigative Report No. 509, page 95.

Review of Commission’s Process For Selecting IA & Inv Co. for Exams   November 19, 2009
Report No. 470
                                                  Page 40
Finding 5: Part II of Form ADV Should Be Filed
with the Commission.
        Up until 2000, investment advisers were required to file Parts
        1 and II of Form ADV with the Commission in hard copy. In
        2000, advisers began filing Part 1 of Form ADV electronically
        with the Commission and were no longer automatically
        required to provide a copy of Part II to the Commission.

        Part II of Form ADV contains pertinent disclosures about an
        investment adviser’s advisory services, fees, types of clients,
        the types of investments on which the adviser offers advice,
        an adviser’s other business activities, affiliates, conditions for
        managing accounts, and compensation information.

Part II of ADV was required to be filed with the SEC until 2000 when the
Commission adopted new rules under the Advisers Act requiring that registered
advisers make filings with the Commission electronically through the IARD
system. 39 At that time, the Commission exempted advisers from submitting Part
II to the Commission because the IARD was not ready to accept those filings. 40
The exemption was intended to be temporary, but nine years later, investment
advisers are still not required to file Part II of their Form ADV electronically or
even file a paper copy with the Commission, absent a specific request from the
Commission. Instead, advisers need only retain a copy of Part II of their Form
ADV in their files. Currently, Part II is deemed to be “filed” with the SEC when
advisers update the form and place a copy in their files.

It appears to the OIG that considering Form ADV Part II “filed” with the
Commission when an adviser places it in his filing cabinet is an inadequate
procedure. The phantom nature of the filing process is highlighted by the fact
that the Commission must make a formal request to an adviser to be furnished
with Part II. In addition, there is no requirement that information from ADV Part II
be made widely available to investors through either the adviser’s website or the
IARD system. The current requirements (or lack thereof) create the potential for
fraud and other abuses.

Our review found that Part II of Form ADV should be filed with the Commission.
This document provides pertinent disclosures about an investment adviser’s

39
   See SEC Rule: Electronic Filing by Investment Advisers; Amendments to Form ADV, IA Release No.
1897 (Sept. 12, 2000), 65 FR 57438 (Sept. 22, 2000).
40
   See SEC Proposed Rule: Amendments to Form ADV, IA Release No. 34-57419, 73 FR 13958,
March 14, 2008.

Review of Commission’s Process For Selecting IA & Inv Co. for Exams             November 19, 2009
Report No. 470
                                             Page 41
advisory services, fees, types of clients, types of investments on which the
adviser offers advice, an adviser’s other business activities, affiliates, conditions
for managing accounts, and compensation information, among other things.

On March 3, 2008, the Commission proposed a rule to amend Part II of Form
ADV. 41 The rule proposed that registered investment advisers fill out Part II of
Form ADV in a narrative form using “plain English” and file it electronically with
the Commission. The rule also proposed that Part II of Form ADV describe an
adviser’s services, fees, business practices, and conflicts of interest with clients.

This rule has not been finalized, nor is it currently on the Commission calendar
for finalization. To finalize a rule, the Commission must consider all public
comments that pertained to the proposed rule and incorporate these comments
into a final rule, which is adopted by vote of the full Commission. Once adopted,
the rule becomes a part of the official rules that govern the securities industry.

Neither the proposed rule, nor SEC technology, currently provide for an efficient
means to analyze the narrative data. Electronically tagging the narrative data
could assist OCIE with this task. Given the more than 11,000 registered
investment advisers, it would be extremely beneficial if OCIE had the means to
efficiently analyze narrative data in the aggregate.

       Recommendation 10:

       The Commission should finalize the proposed rule titled Amendments to
       Form ADV [Release No. IA-2711; 34-57419]. In finalizing this rule, the
       Commission should consider what, if any, additional information
       investment advisers should include in Part II of Form ADV by consulting
       with the Office of Compliance Inspections and Examinations (OCIE) and
       the Division of Investment Management (IM). Further, the Commission, in
       consultation with OCIE and IM, should consider provisions that would
       assist OCIE to efficiently and effectively review and analyze the
       information in Part II of Form ADV.




41
  See SEC Proposed Rule: Amendments to Form ADV, IA Release No. 34-57419, 73 FR 13958,
March 14, 2008.

Review of Commission’s Process For Selecting IA & Inv Co. for Exams        November 19, 2009
Report No. 470
                                          Page 42
Finding 6: OCIE Identified Certain Risks But
These Risks Have Not Been Addressed
       OCIE internal documentation identified a risk that hedge
       fund custodian statements could be fictitious, and the assets
       may not be verifiable. Another risk stated that since
       investment advisers are not required to file Part II of Form
       ADV with the Commission, the SEC does not receive
       important information regarding potential conflicts of interest
       involving investment advisers. While these issues have
       been identified, neither issue has been resolved.

In 2006, OCIE developed a written Action Plan that summarized key risks
identified by the OCIE staff. The Action Plan contained 48 risks, listed in the
order of importance (the most significant risk was listed first, etc.). For each risk,
the Action Plan included OCIE recommended actions to mitigate the risks,
actions taken to address the risks, OCIE’s plans for further action, and the risk
level. The risk levels ranged from tier I (highest risk) to tier III (lowest risk). Per
OCIE’s documentation, risks rated as Tier I required immediate action, those
rated as Tier II required action in due course and risks rated as Tier III did not
require any action at the time the risks were identified.

This document identified the following risks:

Hedge Funds – Custody Misappropriation
OCIE recorded risk number eight as follows:

       Advisers to hedge funds have custody of client assets, with
       sole discretion over the disposition assets and custodian
       statements being delivered to an insider at the adviser. Any
       custodian statements that are provided to customers may
       not be verifiable, be fictitious, or may be prepared by a non-
       US custodian. Furthermore, the statements may not be
       audited by a legitimate, independent auditor. If the auditor
       has provided a negative opinion or no opinion, investors in
       the fund may not be notified.

OCIE rated this risk as a Tier I risk. To address this risk, in 2005, OCIE
recommended, among other actions, adding staff, commencing a rule-making
process, examining this area across many investment advisers, initiating a staff
study, and raising awareness. As a matter of practice, however, prior to Madoff’s
confession that he was running a Ponzi scheme, OCIE did not obtain third party
Review of Commission’s Process For Selecting IA & Inv Co. for Exams   November 19, 2009
Report No. 470
                                         Page 43
verifications. OCIE said that obtaining third party verifications was difficult and
time-consuming. In some cases, the SEC has no regulatory authority over third
parties, which has resulted in third parties not responding to the SEC. Further,
OCIE’s staff resources have not kept pace with the growth in the number of
registered investment advisers. In light of the Madoff scandal, however, OCIE
has now begun incorporating third party verifications into its examinations.

Form ADV Part II
OCIE recorded risk number 35 as follows:

           Customers are not receiving important disclosures, and
           examiners have little access to such disclosures, because
           Form ADV Part II is difficult to read and is not available
           online. Part II should be written in plain English and made
           available online. This would permit it to be readily reviewed
           by examiners, either during the risk-targeting process or on-
           site.

As discussed in finding 5 above, our review found that Part II of Form ADV
should be filed with the Commission. This document provides pertinent
disclosures about an investment adviser’s advisory services, fees, types of
clients, types of investments on which the adviser offers advice, an adviser’s
other business activities, affiliates, conditions for managing accounts and
compensation information, among other things.

On March 3, 2008, the Commission proposed a rule to amend Part II of Form
ADV. 42 The rule proposed that registered investment advisers fill out Part II of
Form ADV in a narrative form using “plain English” and file it electronically with
the Commission. The rule also proposed that Part II of Form ADV describe an
adviser’s services, fees, business practices, and conflicts of interest with clients.

This rule has not been finalized, nor is it currently on the Commission calendar
for finalization. Recommendation 9 in Finding 5 pertains to finalizing this rule.

           Recommendation 11:

           The Office of Compliance Inspections and Examinations (OCIE) should
           develop and adhere to policies and procedures for conducting third party
           verifications, such that OCIE verifies the existence of assets, custodian
           statements, and other relevant criteria.

42
     SEC Proposed rule: Amendments to Form ADV, Release No. 34-57419, 73 FR 13958, March 14, 2008.

Review of Commission’s Process For Selecting IA & Inv Co. for Exams             November 19, 2009
Report No. 470
                                              Page 44
                                                                           Appendix I



                                   Acronyms

 Advisers Act            Investment Advisers Act of 1940
 BMIS                    Bernard Madoff Investment Securities, LLC
 DTC                     Depository Trust Company
 Enforcement             Division of Enforcement
 FGG                     Fairfield Greenwich Group
 FINRA                   Financial Industry Regulatory Authority
 Form ADV                Uniform Application for Investment Adviser Registration
 IARD                    Investment Adviser Registration Depository
 IARD system             Investment Adviser Registration Depository system
 IM                      Division of Investment Management
 Madoff                  Bernard L. Madoff
 MSIL                    Madoff Securities International Limited
 NASD                    National Association of Securities Dealers
 NERO                    Northeastern Regional Office
 OCIE                    Office of Compliance, Inspections and Examinations
 OEA                     Office of Economic Analysis
 OIG                     Office of the Inspector General
 SEC or                  U.S. Securities and Exchange Commission
 Commission
 SIPC                    Securities Investor Protection Corporation




Review of Commission’s Process For Selecting IA & Inv Co. for Exams   November 19, 2009
Report No. 470
                                         Page 45
                                                                          Appendix II


                     Scope and Methodology
This review was not conducted in accordance with the government auditing
standards.

Scope. The scope includes of a review of SEC’s Examinations conducted on
Madoff dating from 1992 to 2006. Specifically, the scope consists of a review of
Enforcement’s investigation and examination conducted in 1992, OCIE’s Cause
Examinations conducted in 2004 and 2005, and Enforcement’s January 2006
investigation on Madoff. Also, we examined the BMIS Form ADV filings and
reviewed the OIG investigative report Investigation of Failure of the SEC to
Uncover Bernard Madoff’s Ponzi Scheme, Report No. 509.

Methodology. To address the review’s first objective to determine whether the
Commission’s rationale for not performing an examination of BMIS’ investment
advisory business soon after the firm registered as an investment adviser in
2006, we interviewed staff from OCIE and Enforcement. We also reviewed:

   •   BMIS’ Form ADV filings;
   •   OCIE’s process for rating investment advisers as “low,” “medium,” and
       “high;”
   •   OCIE’s process for identifying risks related to investment advisers; and
   •   OCIE’s process for examining investment advisers.

To address the review’s second objective to develop recommendations to
improve OCIE’s process for selecting investment advisers and investment
companies for examination, we:

   •   Reviewed and analyzed relevant information from OIG’s investigative
       report Investigation of Failure of the SEC to Uncover Bernard Madoff’s
       Ponzi Scheme, Report No. 509;
   •   Examined OCIE’s process for choosing investment advisers and
       investment companies for examination;
   •   Interviewed OCIE officials to determine why OCIE did not initiate an
       examination of BMIS after BMIS filed its first Form ADV with the
       Commission in August 2006; and
   •   Interviewed Enforcement and the Division of Investment Management
       staff.



Review of Commission’s Process For Selecting IA & Inv Co. for Exams   November 19, 2009
Report No. 470
                                         Page 46
                                                                          Appendix II

Prior OIG Coverage. On August 31, 2009, the OIG issued Investigation of
Failure of the SEC to Uncover Bernard Madoff’s Ponzi Scheme, Report No. 509.
This report analyzed the reasons why the Commission did not believe that the
allegations and tips the Commission received about Madoff were credible. The
investigation found that the SEC received more than ample information in the
form of detailed and substantive complaints over a period of many years to
warrant a thorough and comprehensive examination and/or investigation of
Madoff and BMIS for operating a Ponzi scheme. Despite three examinations and
two investigations of BMIS, a thorough and competent investigation or
examination was never performed, and the SEC never identified the Ponzi
scheme that Madoff operated.

On September 29, 2009, the OIG issued Program Improvements Needed Within
the SEC’s Division of Enforcement, Report No. 467. The review identified issues
that prevented Enforcement from accomplishing its mission to enforce the
securities laws and protect investors and identified needed programmatic
improvements. The report found that Enforcement staff lacked adequate
guidance on how to appropriately analyze complaints and did not conduct a
thorough review of the complaints brought to its attention prior to Madoff’s
confession.

On September 29, 2009, the OIG issued Review and Analysis of OCIE
Examinations of Bernard L. Madoff Investment Securities, LLC, Report No. 468.
The report found that OCIE examiners made critical mistakes in nearly every
aspect of their examinations of Madoff and BMIS and missed significant
opportunities to uncover Madoff’s Ponzi scheme. The report concluded that OCIE
examiners did not properly plan or conduct their examinations of Madoff, and
because of these failures, were unable to discover Madoff’s fraud.




Review of Commission’s Process For Selecting IA & Inv Co. for Exams   November 19, 2009
Report No. 470
                                         Page 47
                                                                         Appendix III


                                      Criteria

Form ADV: Uniform Application for Investment Adviser Registration.
Investment advisers are required to file this Form with the SEC at least annually.

SEC Proposed Rule: Amendments to Form ADV, Release No. 34-57419, 73
FR 13958, March 14, 2008. Proposes requiring investment advisers registered
with the SEC to deliver to clients and prospective clients a brochure written in
plain English and to file electronically Part II of Form ADV with the SEC.

SEC Rule 204-1: 17 C.F.R. §275.204-1. Requires investment advisers to
update Form ADV on an annual basis and as warranted, in accordance with
instructions to Form ADV.




Review of Commission’s Process For Selecting IA & Inv Co. for Exams   November 19, 2009
Report No. 470
                                         Page 48
                                                                         Appendix IV


                    List of Recommendations

Recommendation 1:

The Office of Compliance Inspections and Examinations (OCIE) should
implement a procedure requiring, as part its process for creating a risk rating for
an investment adviser, that OCIE staff perform a search of Commission
databases containing information about past examinations, investigations, and
filings related to the investment adviser.

Recommendation 2:

The Office of Compliance Inspections and Examinations (OCIE) should change
the risk rating of an investment adviser based on pertinent information garnered
from all Divisions and Offices of the Commission, including information from
OCIE examinations and Enforcement investigations, regardless of whether the
information was learned during an examination conducted to look specifically at a
firm’s investment advisory business.

Recommendation 3:

The Division of Enforcement and the Office of Compliance Inspections and
Examinations should establish and adhere to a joint protocol providing for the
sharing of all pertinent information (e.g., securities laws violations, disciplinary
history, tips, complaints and referrals) identified during the course of an
investigation or examination or otherwise.

Recommendation 4:

The Office of Compliance Inspections and Examinations (OCIE) should establish
a procedure to thoroughly evaluate negative information that it receives about an
investment adviser and use this information to determine when it is appropriate to
conduct a cause examination of an investment adviser. OCIE should ensure its
procedure provides for timely opening of a cause examination.




Review of Commission’s Process For Selecting IA & Inv Co. for Exams   November 19, 2009
Report No. 470
                                         Page 49
                                                                         Appendix IV


Recommendation 5:

When the Office of Compliance Inspections and Examinations (OCIE) becomes
aware of negative information pertaining to an investment adviser, OCIE should
examine the investment adviser’s Form ADV filings and document and
investigate discrepancies existing between the adviser’s Form ADV and
information that OCIE previously learned about the registrant.

Recommendation 6:

The Office of Compliance Inspections and Examinations (OCIE) should establish
a procedure to thoroughly evaluate an investment adviser’s Form ADVs when
OCIE becomes aware of issues or problems with an investment adviser. OCIE
should document areas where it believes a Form ADV contains false information
and initiate appropriate action, such as commencing a cause examination.

Recommendation 7:

The Office of Compliance Inspections and Examinations (OCIE) should re-
evaluate the point scores that it assigns to advisers based on their reported
assets under management. OCIE should assign progressively higher risk
weightings to firms that have greater assets under management.


Recommendation 8:

The Office of Compliance Inspections and Examinations (OCIE) should re-
evaluate the point scores that it assigns to firms based on their reported number
of clients to which they provide investment advisory services. OCIE should
assign progressively higher risk weightings to investment advisers that serve a
larger number of clients.




Review of Commission’s Process For Selecting IA & Inv Co. for Exams   November 19, 2009
Report No. 470
                                         Page 50
                                                                         Appendix IV


Recommendation 9:

The Office of Compliance Inspections and Examinations (OCIE) should
recommend to the Chairman’s office that it institute a Commission rulemaking
that would require the following additional information to be reported as part of
Form ADV:

   •   Performance information;
   •   A fund’s service providers, custodians, auditors and administrators, and
       applicable information about these entities;
   •   A hedge fund’s current auditor and any changes in the auditor; and
   •   The auditor’s opinion of the firm.

Recommendation 10:

The Commission should finalize the proposed rule titled Amendments to Form
ADV [Release No. IA-2711; 34-57419]. In finalizing this rule, the Commission
should consider what, if any, additional information investment advisers should
include in Part II of Form ADV by consulting with The Office of Compliance
Inspections and Examinations (OCIE) and the Division of Investment
Management (IM). Further, the Commission, in consultation with OCIE and IM,
should consider provisions that would assist OCIE to efficiently and effectively
review and analyze the information in Part II of Form ADV.

Recommendation 11:

The Office of Compliance Inspections and Examinations (OCIE) should develop
and adhere to policies and procedures for conducting third party verifications,
such that OCIE verifies the existence of assets, custodian statements, and other
relevant criteria.




Review of Commission’s Process For Selecting IA & Inv Co. for Exams   November 19, 2009
Report No. 470
                                         Page 51
                                                                          Appendix V


                     Management Comments




Review of Commission’s Process For Selecting IA & Inv Co. for Exams   November 19, 2009
Report No. 470
                                         Page 52
                                                                          Appendix V




Review of Commission’s Process For Selecting IA & Inv Co. for Exams   November 19, 2009
Report No. 470
                                         Page 53
                                                                          Appendix V




Review of Commission’s Process For Selecting IA & Inv Co. for Exams   November 19, 2009
Report No. 470
                                         Page 54
                                                                          Appendix V




Review of Commission’s Process For Selecting IA & Inv Co. for Exams   November 19, 2009
Report No. 470
                                         Page 55
                                                                         Appendix VI


OIG Response to Management’s Comments

The Office of Inspector General (OIG) is pleased that the Office of Compliance
Inspections and Examinations (OCIE) agreed with all 11 recommendations in this
report. We believe that these recommendations are crucial to ensuring that
necessary improvements are made to OCIE’s process for selecting investment
advisers and investment companies for examination.

As the August 31, 2009 OIG Report entitled “Investigation of Failure of the SEC
to Uncover Bernard Madoff’s Ponzi Scheme” detailed, the SEC Enforcement
Division (Enforcement) concluded its formal investigation into Harry Markopolos’
complaint in 2006, finding that Bernard Madoff Investment Securities, LLP
(BMIS) acted as an unregistered investment adviser to certain hedge funds,
institutions, and high net worth individuals in violation of the registration
requirements of the Advisers Act. The Enforcement staff also found that BMIS’s
largest hedge fund client, Fairfield Greenwich Group, did not adequately disclose
to its investors BMIS’s advisory role and merely described BMIS as an executing
broker to Fairfield Greenwich Group’s accounts.

The Enforcement staff closed the examination when BMIS agreed to register with
the Commission as an investment adviser. The Enforcement staff stated that
BMIS’s investment adviser registration was a “good result” because it would
expose Madoff and his firm to “extra regulatory scrutiny.” They further noted that
BMIS’s agreement to register as an investment adviser was “a positive
development for law enforcement” because BMIS would “be subject to continued
on-site inspections.” However, despite the accumulated evidence that the SEC
had regarding Madoff’s misrepresentations and possible fraud, OCIE never
conducted an examination of BMIS.

We believe that OCIE should take immediate steps to implement these
recommendations. We are encouraged that OCIE is acknowledging that
significant improvements must be made with respect to its processes and that it
intends to deploy sophisticated technologies to address the issues raised in our
report. We strongly encourage OCIE and the Commission to make available the
necessary resources to ensure that OCIE is better able to select investment
advisers and investment companies for examination and better equipped to
conduct comprehensive examinations of these entities. The strength of our
capital markets relies on investor confidence, which in turn depends on vigorous
regulatory oversight. Investors will only have confidence in our capital markets
when they believe that the SEC’s oversight is vigorous and competent. Thus, it
is critical that OCIE take the necessary steps to improve its operations forthwith.


Review of Commission’s Process For Selecting IA & Inv Co. for Exams   November 19, 2009
Report No. 470
                                         Page 56
                                                                         Appendix VI

The OIG plans to follow up to ensure that all 11 recommendations are
implemented in full and report back to the Congress on the status of these
efforts. We also plan to conduct a follow-up audit to determine whether the
changes to OCIE’s operations are having the desired and appropriate effect.




Review of Commission’s Process For Selecting IA & Inv Co. for Exams   November 19, 2009
Report No. 470
                                         Page 57
                     Audit Request and Ideas
The Office of Inspector General welcomes your input. If you would like to
request an audit in the future or have an audit idea, please contact us at:

U.S. Securities and Exchange Commission
Office of Inspector General
Attn: Assistant Inspector General, Audits (Audit Request/Idea)
100 F Street, N.E.
Washington D.C. 20549-2736

Tel. #: 202-551-6061
Fax #: 202-772-9265
Email: oig@sec.gov




      Hotline
      To report fraud, waste, abuse, and mismanagement at SEC, contact the
      Office of Inspector General at:

      Phone: 877.442.0854

      Web-Based Hotline Complaint Form:
      www.reportlineweb.com/sec_oig
